August 26, 2020

Via Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

State of Nevada, et al. v. Donald Walden Jr., et al., Case No. 19-1315

Dear Mr. Harris:
I am counsel of record for Donald Walden Jr., et al. (“Respondents”). I am writing to
respectfully request a one day extension of time for Respondents to file a response to Petitioners
State of Nevada, et al.’s Petition for Writ of Certiorari in the above entitled case. The response
deadline was set for August 25, 2020. I am requesting a one (1) day extension from that date, so
that Respondents’ response would be due Wednesday, August 26, 2020.
Thank you very much for your consideration.
Very truly yours,
THIERMAN BUCK, LLP
Joshua D. Buck
Counsel for Respondents

Cc:

Aaron Ford, Counsel for Petitioners (Via ECF Notification)
Heidi Parry Stern, Counsel for Petitioners (Via ECF Notification)
Jeffrey M. Conner, Counsel for Petitioners (Via ECF Notification)
Steve Shevorski, Counsel for Petitioners (Via ECF Notification)

